>
|

OCKLE

2311 Douglas Street Ne = E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B as ets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 . www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1779

CARLOS A. MORALES-VAZQUEZ,
Petitioner,
Vv.
OPTIMA SEGUROS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1668 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

 

GENERAL NOTARY-State of Nebraska A Ch
RENEE J. GOSS 9. Qud aw "
Notary Public

Affiant 41376
